TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Computer System Access Controls Over
                      Contractors Need to Be Improved



                                         July 24, 2009

                            Reference Number: 2009-20-108




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 24, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Computer System Access Controls Over
                             Contractors Need to Be Improved (Audit # 200820015)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) established and implemented effective computer access controls over contractors
 that have been hired to develop, operate, and maintain IRS computer systems. This review was
 included in the Treasury Inspector General for Tax Administration Fiscal Year 2008 Annual
 Audit Plan as part of the statutory requirements to annually review the adequacy and security of
 IRS information technology.

 Impact on the Taxpayer
 The IRS uses contractors to perform a variety of information technology functions, such as
 developing applications for IRS business operations and maintaining computer operations. To
 perform these functions, contractors are granted access to IRS computer systems. However,
 some contractors who no longer had a business need to have access had active user accounts on
 IRS systems. When contractors are allowed to have unnecessary access to computer systems, the
 IRS is increasing the risks of exposing taxpayer data to unauthorized disclosure and disruption of
 system operations.
                                               Computer System Access Controls
                                              Over Contractors Need to Be Improved




         Synopsis
        We have previously reported] problems with contractors' access to IRS computer systems. The
        underlying theme of the problems is the IRS' inability to effectively control contractor access to
        its computer systems. One of the fundamental principles for effective computer security is
        restricting system access to only those systems for which individuals, including contractors, have
        a business need. The IRS has specific security policies and procedures governing access by
        employees and contractors to computer systems and taxpayer data.
        Despite the IRS' policies and procedures and our previous reports of inadequate oversight of
        contractor access to IRS computer systems, we identified system access control issues for
        contractors. From a sample of7 IRS systems, we found that 53 of 376 contractors had active
        user accounts but did not have a business need for access to that system. These 53 contractors
        consisted of contractors whose job duties or access privileges had changed and no longer needed
        system access, contractors who had separated from the contract with the IRS, and contractors
        who had never logged onto the system or had not logged onto the system within 45 calendar
        days. We also identified 15 contractors whose system access was not deleted in a timely manner
        upon separation from the contract with the IRS. These contractors' accesses were not removed
        from systems in a timely manner because responsible officials were not following security
        procedures and relied on systemic solutions to disable and delete user access to systems based on
        inactivity. Also, managers and Contracting Officer's Technical Representatives 2 did not provide
        the necessary oversight of reviewing access privileges and notifying system owners when
        contractors no longer needed access.
        We also identified 12 system development contractors who had access to the production
3(d)    environment of the system on which they worked and 39 system administration contractors who
        had database administrator privileges. I


                I Lastly, we found system accesses were not always authorized, documented, or
       '----------,-d
        recertified in a timely manner, and system accesses were granted prior to a background
        investigation being completed. We believe managers and security officers did not carry out their
        security roles and responsibilities over system access.




        I InsuffiCient Contractor Oversight Put Data and EqUipment at Risk (Reference Number 2004-20-Q63, dated
        March 22, 2004) and Monitoring ojPRllvfE Contractor Access to Networks and Data Needs to Be Improved
        (Reference Number 2005-20-185, dated September 29,2005).
        2 Contracting Officer's Technical Representatives furnish technical direction, monitor contract performance, and
        maintain an arm's-length relationship with the contractor.

                                                                                                                           2
                                 Computer System Access Controls
                                Over Contractors Need to Be Improved




Recommendations
We recommended that the Chief Technology Officer 1) provide appropriate communications to
all Contracting Officer’s Technical Representatives and managers reinforcing the need to ensure
that system accesses are revoked when contractors leave the IRS and that separation of duties is
followed, 2) enforce current procedures on all systems by configuring systems to automatically
disable and/or delete user accounts when they are not accessed for the appropriate number of
days, 3) provide appropriate communications to all Contracting Officer’s Technical
Representatives and managers to remind them that they have the primary responsibility for
providing prompt notification to the responsible organization of any contractor status changes,
4) provide appropriate communications to Contracting Officer’s Technical Representatives and
managers that the Online 5081 system is the primary system used for authorizing and approving
requests for any system access and that system access should not be granted until a contractor or
employee has successfully completed a background investigation, and 5) improve accountability
over employee and manager adherence with security policies and procedures over contractor
system access.

Response
IRS management agreed with the recommendations. The Modernization and Information
Technology Services Cybersecurity organization will coordinate with the Agency-Wide Shared
Services Contractor Oversight Group to develop and deliver appropriate communications content
to Contractor Officer’s Technical Representatives and managers that will 1) remind them of the
notification responsibility, including annually reviewing access privileges to verify the continued
need for access and, in accordance with existing IRS policy, suspending, cancelling, and/or
adjusting contractor system access privileges; 2) address that after 45 calendar days have passed
and the user is not recertified, procedures will be implemented to disable and remove or securely
incapacitate the user account and access privileges; and 3) remind them of their obligation, in
accordance with existing IRS policy, to separate contractors who do not adhere to security
policies and procedures governing system access within 45 calendar days. Also, the
Modernization and Information Technology Services organization will enforce system
configuration settings to automatically disable contractors’ accounts after 45 calendar days of
inactivity and will ensure accounts that are inactive for more than 90 calendar days are deleted or
securely incapacitated based on the technical capabilities and requirements of each system and
platform. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.

                                                                                                 3
                                            Computer System Access Controls
                                           Over Contractors Need to Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Contractors Had Unnecessary Access to Computer Systems .......................Page 2
                    Recommendations 1 through 3:...........................................Page 5

          Compliance With Security Requirements Could Be Improved
          for Contractors Who Have a Business Need for System Access..................Page 6
                    Recommendations 4 and 5: ................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
            Computer System Access Controls
           Over Contractors Need to Be Improved




               Abbreviations

COTR     Contracting Officer’s Technical Representative
IRS      Internal Revenue Service
MITS     Modernization and Information Technology Services
OL5081   Online 5081
                                     Computer System Access Controls
                                    Over Contractors Need to Be Improved




                                           Background

The Internal Revenue Service (IRS) relies extensively on contractors to provide information
technology services and systems. These contractors perform a variety of information technology
functions for the IRS, such as developing applications for business operations and maintaining
computer operations. To perform these functions, contractors are granted access to IRS
computer systems.
We have previously reported problems with contractors’ access to IRS computer systems. In
March 2004, we reported 1 that contractors were not complying with IRS security procedures and
IRS Procurement function officials were not aware of the security regulations pertaining to the
contractors they were assigned to oversee. In September 2005, we conducted a followup review 2
and identified that Procurement function officials were still not fulfilling their responsibilities
related to granting contractors access to IRS systems. We identified more than 1,000 contractors
who were no longer working for the IRS that could still sign on to IRS systems.
The underlying theme of these problems is the IRS’ inability to effectively control contractor
access to its computer systems. One of the fundamental principles for effective computer
security is restricting system access to only those systems and applications for which individuals,
including contractors, have a business need. This concept of need-to-know and least privilege
includes having appropriate persons authorize system access, having program managers and
systems owners monitor system access to ensure access is still needed based on job
responsibilities, and removing system access when the need no longer exists.
This review was performed at the IRS National Headquarters in New Carrollton, Maryland, and
in Modernization and Information Technology Services (MITS) organization field offices
located in Atlanta, Georgia; Cincinnati, Ohio; Memphis, Tennessee; and Austin, Texas, during
the period July 2008 through March 2009. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.



1
  Insufficient Contractor Oversight Put Data and Equipment at Risk (Reference Number 2004-20-063, dated
March 22, 2004).
2
  Monitoring of PRIME Contractor Access to Networks and Data Needs to Be Improved (Reference
Number 2005-20-185, dated September 29, 2005).
                                                                                                          Page 1
                                      Computer System Access Controls
                                     Over Contractors Need to Be Improved




                                      Results of Review

Contractors Had Unnecessary Access to Computer Systems
The IRS has specific security policies and procedures governing access by employees and
contractors to computer systems and taxpayer data. However, our review identified two areas
where contractors had unnecessary access to IRS computer systems and taxpayer data.

Contractors had active user accounts, but did not have a business need
The IRS has access control procedures and requirements that pertain to both IRS employees and
contractors. These procedures include granting system access when the business need exists,
applying the principles of need-to-know and least privilege, and taking away system access when
the business need no longer exists. As a further control, the IRS requires disabling system access
when no access has occurred within 45 calendar days and removing system access when no
access has occurred within 90 calendar days.
Contractors are also subjected to further scrutiny from the Contracting Officer’s Technical
Representative (COTR), 3 who is responsible for the contract under which the contractor was
hired to work. The COTR’s duties include initiating access privileges for contractors, reviewing
access privileges annually to verify the continued need for access, and notifying system owners
in a timely manner when contractors no longer need access.
Despite these procedures, we identified contractors with active user accounts on IRS systems
who no longer had a business need for that access. For a sample of 7 IRS systems, we identified
that 53 (14 percent) of 376 contractors had active user accounts but did not have a business need
for access to that system. We also identified five duplicate active user accounts for contractors
on the systems we reviewed. The 53 contractors with active user accounts fell into the following
exception categories: 4
    •   Job duties or access privileges changed and system access was no longer needed
        (35 contractors). System owners and program managers were unaware of these
        situations when they occurred. COTRs did not know of the change in job duties or did
        not share the information with system owners or program managers.




3
  COTRs furnish technical direction, monitor contract performance, and maintain an arm’s-length relationship with
the contractor.
4
  The total number of exceptions is more than 53 because 4 contractors fell into more than 1 category.
                                                                                                          Page 2
                                Computer System Access Controls
                               Over Contractors Need to Be Improved



   •   Separated from the contract with the IRS (five contractors). Of particular concern, we
       found that 3 of the 5 separated contractors left the IRS in May 2006, and the accounts
       were active and not used for more than 850 days. The IRS was unable to provide us any
       information on the separation dates for the other two contractors.
   •   Never logged onto the system or had not logged onto the system within 45 calendar days
       (17 contractors). This condition suggests that the contractors never needed access to the
       system in the first place or a change in needed access had occurred. Again, system
       owners and program managers were unaware of these situations, and COTRs did not
       know of the change in job duties or did not share the information with system owners or
       program managers.
In addition to contractors who had active system access with no business need, we identified
15 contractors whose system access was not deleted in a timely manner upon their separation
from the IRS. The delays in removing system access ranged from 4 to 53 calendar days.
These contractors’ accesses were not removed from systems in a timely manner because
responsible officials were not following security procedures and relied on systemic solutions to
disable and delete user access to systems based on inactivity. However, the automated programs
to identify user accounts with inactivity were either not being run regularly or did not work as
intended. Also, managers and COTRs did not provide the necessary oversight of reviewing
access privileges and notifying system owners when contractors no longer needed access.

Contractors had excess privileges that violated separation of duties rules
Separation of duties is an organizational principle that provides process integrity while
maintaining proper security and quality controls. IRS security policy states that system and
application software development, testing, and debugging must be performed on information
systems dedicated for these purposes and not on production information systems. To ensure
proper separation of duties, system developers should not have access to the system’s production
environment. This separation ensures that system developers cannot make changes on
production systems that have gone through rigorous testing and authorization to operate.
Developers who have access to the production system could bypass strict configuration
management requirements and make unapproved and untested changes. In addition, system
administrators should not have database administrator privileges. While system administrators
are responsible for the configuration and day-to-day operations of the system, the database
administrators are responsible for the security, maintenance, and backup of the database
repositories. This separation ensures the integrity of the data and that any unauthorized changes
to the data can be detected.
We identified 12 system development contractors who had access to the production environment
of the system on which they worked and 39 system administration contractors who had database
administrator privileges. We were unable to determine how long these contractors had

                                                                                          Page 3
                                               Computer System Access Controls
                                              Over Contractors Need to Be Improved



       unnecessary access to IRS production systems because we could not determine when these
       accounts were created, when contractors were given system access, or when user access
       privileges were granted or changed.

3(d)                        n environment access issue

                              For the database administrator access issue,

3(d)
       Two other factors have heightened our concerns about the access control deficiencies over
       contractors.
           1. While we did not identify any questionable activity or wrongdoing by contractors who no
              longer had a business need for system access, our attempts to evaluate their activities
              were hampered by the lack of reviewable audit traiP data for the systems we reviewed.
              We referred this issue to an ongoing Treasury Inspector General for Tax Administration
              review over audit trails. Without the ability to monitor contractor system activities, the
              IRS is placed in the precarious position of relying on access controls as the sole means to
              ensure that contractors are accessing only the systems and data they require to do their
              jobs.
           2. The IRS does not have an effective centralized system or method of identifying all
              contractors working within the IRS. This lack of accountability has hampered the IRS'
              ability to monitor contractors and control their computer system access. While the IRS
              has formed a committee to implement a central tracking process for contractors, the
              processis not in place and implementation efforts have encountered difficulties.
       When contractors are allowed to have unnecessary access to IRS systems and taxpayer data, the
       IRS is increasing the risks of exposing taxpayer data to unauthorized disclosure and disruption of
       system operations. All seven computer systems in our review contain taxpayer data, including
       taxpayer correspondence; current, past, and questionable tax returns; delinquent taxpayer
       accounts; and fuel transaction information on billing and vehicle registration.
       To illustrate these risks, several news outlets published a January 2009 news story relating to a
       former Federal National Mortgage Association (Fannie Mae) information technology contractor
       who was indicted for installing a malicious computer program that would have caused millions
       of dollars of damage and reduced, if not shutdown, operations at the mortgage giant. The
       malicious program would have disabled monitoring alerts and logins, deleted root passwords to
       4,000 servers, and erased all data and backup data on those servers by overwriting them with
       zeros. However, the malicious program was discovered by an employee 5 days after it was


       5 An audit trail is a chronological record of activities that allow for the reconstruction, review, and examination of a
       transaction from inception to final results. Audit trails can be used to detect unauthorized accesses to computer
       networks.
                                                                                                                        Page 4
                                 Computer System Access Controls
                                Over Contractors Need to Be Improved



installed, and no actual harm occurred. The contractor was able to install the malicious program
because his system access privileges were not revoked as soon as he was terminated from his
position. An equally disturbing possible outcome, as noted in comments from a reader to one of
the online news articles, was that the contractor could have stolen critical customer data for the
purpose of monetary gain instead of attempting to disrupt computer operations.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Provide appropriate communications to all COTRs and managers
reinforcing the need to ensure appropriate system accesses are revoked when contractors leave
the IRS and contractors’ duties no longer require system access, and that separation of duties is
followed to ensure that contractors do not have access to both development and production
system environments and do not have both system and database administrator privileges.
       Management’s Response: The IRS agreed with this recommendation. The MITS
       Cybersecurity organization will coordinate with the Agency-Wide Shared Services
       Contractor Oversight Group to develop and deliver appropriate communications content
       to COTRs.
Recommendation 2: Enforce current procedures on all systems by configuring systems to
automatically disable contractors’ accounts after 45 calendar days of inactivity and to delete the
accounts after 90 calendar days of inactivity.
       Management’s Response: The IRS agreed with this recommendation. The MITS
       organization will enforce system configuration settings to automatically disable
       contractors’ accounts after 45 calendar days of inactivity and will ensure that accounts
       that are inactive for more than 90 calendar days are deleted or securely incapacitated
       based on the technical capabilities and requirements of each system and platform.
       Securely incapacitating accounts will effectively delete all access capability while
       retaining account background information. Current procedures will be reviewed and
       updated to ensure that the associated technical configurations are appropriately
       documented.
Recommendation 3: Provide appropriate communications to all COTRs and managers to
remind them that they have the primary responsibility for providing prompt notification to the
responsible organization of any contractor status changes, including annually reviewing access
privileges to verify the continued need for access. The responsible organization should
immediately suspend, cancel, and/or adjust all access privileges associated with changes in a
contractor’s status.
       Management’s Response: The IRS agreed with this recommendation. The MITS
       Cybersecurity organization will coordinate with the Agency-Wide Shared Services

                                                                                            Page 5
                                Computer System Access Controls
                               Over Contractors Need to Be Improved



       Contractor Oversight Group to provide appropriate communications to COTRs and
       managers reminding them of this notification responsibility, including annually reviewing
       access privileges to verify the continued need for access and, in accordance with existing
       IRS policy, suspend, cancel, and/or adjust contractor system access privileges.

Compliance With Security Requirements Could Be Improved for
Contractors Who Have a Business Need for System Access
The IRS has specific procedures and requirements for authorizing system access for employees
and contractors. Our review identified two areas where access authorization controls over
contractors can be improved.

System accesses were not always authorized, documented, or recertified in a
timely manner
Providing contractors access to IRS computer systems starts with the system access authorization
process. The IRS established the Information System User Registration/Change Request
(Form 5081) for managers to request and authorize employee and contractor access for all IRS
systems, including development and production systems. System administrators are responsible
for adding and removing authorized system users and maintaining an up-to-date list of
authorized users. In October 2002, the IRS automated the system authorization process with the
Online 5081 (OL5081) system. The OL5081 system also provides documentation information
on a contractor’s certification that he or she understands the IRS security rules over computer
usage and on the manager’s annual recertification of the contractor’s continued system access
and need-to-know.
The IRS also established other complementary security controls. Managers are required to
annually review users’ accounts and profiles, including a review of the access level,
conformance with the principle of least privilege, and current management authorizations.
Even though clear security policies and procedures have been established, we identified that
46 (12 percent) of 376 contractor accounts did not have proper authorization for system access
on the OL5081 system. We were also unable to find paper copies of approved authorizations
from the contractors’ current managers or COTRs. Twenty-four of the 46 contractor accounts
are associated with a development system, which operated with live taxpayer data and had not
received an approved waiver to operate in this condition.
For one development system, the IRS manager over the system informed us that, because it was
a development system, access was granted using email instead of using the OL5081 system. For
the other systems without the Form 5081 information, we were unable to determine how these
contractors obtained access to the systems. We believe that managers either did not carry out
their responsibilities to follow approved system access authorization processes or system
administrators may have added contractors to systems without a manager’s authorization. The

                                                                                          Page 6
                                     Computer System Access Controls
                                    Over Contractors Need to Be Improved



IRS confirmed that those contractors needing access to IRS systems were in the process of
completing system access authorization.
We also identified 39 (21 percent) of 187 6 contractor accounts that were not recertified in a
timely manner by a manager to indicate that the contractors had a continued need for system
access. We were informed that contractor system accesses were not recertified in a timely
manner because:
    •   Managers were busy and did not have time to recertify the contractor’s continued system
        access and need-to-know.
    •   A transition in managers caused confusion over which manager should do the
        recertification.
    •   Managers were uncertain whether there was still a business need for system access and
        required more time to make a determination.
    •   Managers of contractors whose access were granted using a paper Form 5081 did not
        receive electronic email reminders to recertify.

System accesses were granted prior to a background investigation being
completed
IRS policy requires that a background investigation must be conducted on employees and
contractors at the risk level appropriate to the sensitivity of the position before system access is
granted. At a minimum, contractors should not be given access to sensitive IRS systems until
they have a completed background investigation or have received interim access approval. The
background investigation provides a level of assurance that the employee or contractor is of good
character and can be trusted with access to sensitive data.
Despite this requirement, we found that 7 (2 percent) of 376 contractors were given system
access prior to a background investigation being completed or their receiving interim access
approval. We believe managers and security officers did not carry out their responsibilities of
verifying whether a background investigation was completed or that the contractor had received
interim access approval before granting the contractor system access. All seven contractors
eventually had a completed background investigation.
When contractors are allowed to have access to IRS systems before the completion of system
access authorization tasks, the IRS increases its risk of unauthorized access to taxpayer data as
well as personally identifiable information.



6
 The 187 contractor accounts represent those user accounts in our sample where access was granted over 1 year
prior to system access and were, therefore, subject to annual recertification requirements.
                                                                                                         Page 7
                                Computer System Access Controls
                               Over Contractors Need to Be Improved



Recommendations
The Chief Technology Officer should:
Recommendation 4: Provide appropriate communications to all COTRs and managers that
the OL5081 system is the primary system used for authorizing and approving requests for any
system access. System access should not be granted until the contractor or employee has
successfully completed a background investigation and been approved for access through the
OL5081 system. Managers and COTRs have the primary responsibility to ensure that
contractors and employees complete their annual certification requirements within 45 calendar
days of notification. If after 45 days have passed and a user has not recertified, the System
Administrator should disable and remove the user account and access privileges from the system.
       Management’s Response: The IRS agreed with this recommendation. The MITS
       Cybersecurity organization will coordinate with the Agency-Wide Shared Services
       Contractor Oversight Group to develop and deliver appropriate communications content
       to COTRs. In addition, the communication will also address that after 45 calendar days
       have passed and the user is not recertified, procedures will be implemented to disable and
       remove or securely incapacitate the user account and access privileges.
Recommendation 5: Ensure that COTRs understand their obligation to separate contractors
who do not adhere to security policies and procedures governing system access within
45 calendar days. In cases where a COTR does not separate a noncompliant contractor,
notification should be provided to the COTR’s manager that the manager needs to direct the
COTR to separate the contractor. If the COTR still fails to separate the contractor, the manager
should take appropriate action.
       Management’s Response: The IRS agreed with this recommendation. The MITS
       Cybersecurity organization will coordinate with the Agency-Wide Shared Services
       Contractor Oversight Group to provide appropriate communications to COTRs reminding
       them of their obligation, in accordance with existing IRS policy, to separate contractors
       who do not adhere to security policies and procedures governing system access within
       45 calendar days. This notification will also reinforce taking the appropriate actions
       when this obligation is not fulfilled.




                                                                                           Page 8
                                      Computer System Access Controls
                                     Over Contractors Need to Be Improved



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS established and
implemented effective computer access controls over contractors that have been hired to
develop, operate, and maintain IRS computer systems. To accomplish this objective, we:
I.      Determined whether the IRS is effectively controlling contractor access.
        A. Identified systems with contractor user accounts and judgmentally selected 7 of
           65 systems, totaling 376 contractor user accounts, for review based on the number of
           contractor user accounts and the sensitivity and location of the systems. The seven
           systems selected for review were: the Excise Files Information Retrieval System in
           Cincinnati, Ohio; the Electronic Fraud Detection System and the Integrated
           Collection System in Memphis Tennessee; the Correspondence Imaging System–
           Development, Correspondence Imaging System–Application, and Correspondence
           Imaging System–Imaging in Austin, Texas; and the Integrated Data Retrieval System
           in Atlanta, Georgia, and Austin, Texas.
        B. Determined whether contractors’ access rights were authorized for each system
           selected for review. We obtained a download from the OL5081 system of contractor
           accounts for the systems selected. We verified this information by requesting a
           download from each system selected and reconciled this information to the Treasury
           Integration Management Information System1 database for current and separated
           employees. Those accounts not matched were identified as contractor accounts and
           reconciled with the OL5081 data.
        C. Determined whether contractors’ managers recertified annually their continued
           need-to-know for system access. Only 187 of 376 contractor accounts represented
           those user accounts where access was granted over 1 year from system access and
           were subject to recertification requirements.
        D. Determined whether contractors received the proper level of background
           investigation prior to system access.
        E. Reviewed contractor account information to identify periods of inactivity.
        F. Determined whether contractors have a continued need-to-know for system access.

1
 An official automated personnel and payroll system for storing and tracking all employee personnel and payroll
data. It is outsourced to the United States Department of Agriculture National Finance Center and managed by the
Department of the Treasury.
                                                                                                          Page 9
                                        Computer System Access Controls
                                       Over Contractors Need to Be Improved



         G. Determined whether developers have access to live data and production systems.
         H. Determined the causes for any conditions identified above.
         I. Reviewed audit trails 2 for fraud indicators and trends.
II.      Determine whether contractors are complying with IRS security policies and procedures.
         A. Identified applicable security policies and procedures.
         B. Determined whether contractors violated security policies and procedures.
         C. Determined the causes for contractors not complying with IRS policies and
            procedures for handling sensitive IRS data.
         D. Assessed the effect of the inadequate security controls identified above.




2
  An audit trail is a chronological record of activities that allow for the reconstruction, review, and examination of a
transaction from inception to final results. Audit trails can be used to detect unauthorized accesses to computer
networks.
                                                                                                               Page 10
                               Computer System Access Controls
                              Over Contractors Need to Be Improved



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Kent Sagara, Acting Director
Jody Kitazono, Acting Audit Manager
Louis Lee, Lead Auditor
Alan Beber, Senior Auditor
Myron Gulley, Senior Auditor
Abraham Millado, Senior Auditor
Larry Reimer, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                       Page 11
                              Computer System Access Controls
                             Over Contractors Need to Be Improved



                                                                    Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Stakeholder Management Division OS:CTO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Technology Officer OS:CTO




                                                                          Page 12
            Computer System Access Controls
           Over Contractors Need to Be Improved



                                                  Appendix IV

Management’s Response to the Draft Report




                                                       Page 13
 Computer System Access Controls
Over Contractors Need to Be Improved




                                       Page 14
 Computer System Access Controls
Over Contractors Need to Be Improved




                                       Page 15
 Computer System Access Controls
Over Contractors Need to Be Improved




                                       Page 16
